                     r                                                            ~
                                                     """' SEC&
                                                             :1..
                                                 ~
                                                 \       lllllll~
                                                      '.I4\ojs~

                                 SOCIAL                 SECURITY

                                       Office of the Inspector General




Mr. James Martin
Regional Commissioner
Social Security Administration
600 West Madison, 10thFloor
Chicago, Illinois 60661

Dear Mr. Martin:

Attached is a copy of our final report presenting the results of our audit of the
administrative costs claimed by the Ohio Rehabilitation Services Commission for its
Bureau of Disability Determination (A-13-98-51 007). The objectives of our audit were to
determine whether: (1) expenditures and obligations were properly authorized,
disbursed, and reported; (2) federal funds withdrawn agreed with total expenditures;
and (3) internal controls were adequate.                        "


You may wish to comment on any further action taken or contemplated on our
recommendations.      If you choose to comment, please provide your comments within
the next 60 days. If you wish to discuss the final report, please call me or have your
staff contact Frederick C. Nordhoff at (410) 966-6676.

                                                                     Sincerely,



                                                                    C2)a...:i~ ~.
                                                                     Daniel R. Devlin
                                                                     Acting Assistant Inspector General
                                                                      for Audit

Enclosure




                   SOCIAL   SECURITY    ADMINISTRATION                 BAL1JMORE      MD 21235-0001
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



  AUDIT OF ADMINISTRATIVE COSTS

       CLAIMED BY THE OHIO

     REHABILITATION SERVICES

    COMMISSION FOR ITS BUREAU

   OF DISABILITY DETERMINATION


  September 1999     A-13-98-51007





AUDIT REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                  EXECUTIVE SUMMARY


OBJECTIVES

Our audit objectives were to:

•	   determine whether costs claimed by the Ohio State Bureau of Disability
     Determination (OH-BDD) on its State Agency Report of Obligations for Social
     Security Administration (SSA) Disability Programs (Form SSA-4513) for the period
     October 1, 1994 through September 30, 1997 were allowable and properly
     allocated;

•	   determine whether the aggregate of the SSA funds drawn down agreed with total
     expenditures for Fiscal Years (FY) 1995 through 1997; and

•	   evaluate internal controls over the accounting and reporting of the administrative
     costs claimed, as well as, the draw down of SSA funds.

BACKGROUND

The Disability Insurance (DI) program provides benefits to disabled wage earners and
their families in the event the wage earner becomes disabled. The Supplemental
Security Income (SSI) program provides a nationally uniform program of income to
financially needy individuals who are aged, blind or disabled.

SSA is primarily responsible for implementing the general policies for developing DI and
SSI disability claims. An agency within each State performs DI and SSI disability
determinations in accordance with SSA regulations. Each State agency (SA)
determines claimants' disabilities and ensures that adequate supporting evidence is
available. Each SA is authorized to purchase medical examinations, x-rays and
laboratory tests on a consultative basis to supplement evidence obtained from
claimants' physicians or other treating sources.

SSA pays the SA for 100 percent of allowable expenditures. Each year, SSA
determines the amount of funding authorization. Once funding is approved, each SA is
allowed to withdraw SSA funds to meet immediate program expenses. At the end of
each quarter of the Federal FY, each SA submits a Form SSA-4513.

Rehabilitation Services Commission (RSC) informed us that they were unable to follow
the SSA program Operations Manual System (POMS) requirement to account for




                                             i
payroll expenses on an accrual basis1. Instead, the State of Ohio requires that payroll

expense be accounted for on a cash basis2. On July 20, 1999, the RSC formally

notified the Chicago Regional Commissioner that a conflict existed between the POMS

requirements and Ohio accounting requirements. The Office of Disability (OD)

informed us that SSA has decided to allow the State of Ohio to report its payroll

expenses/obligations on a cash basis. RSC has promised OD that it will revise its

reports of obligations so that they reflect a cash basis of accounting for payroll

expenses for the period 1994 to present.


Our methodology included reviewing Federal laws, regulations, and instructions, as well

as, the OH-BDD general policies and procedures pertaining to administrative costs

incurred and the drawing down of SSA funds. We held discussions with the parent

agency, the State of Ohio Rehabilitative Services Commission (RSC); the Ohio State

Auditors; OH-BDD; and SSA's Chicago Regional Office of Disability.


We also reviewed internal controls regarding the administration of the disability

determination activities and examined the administrative expenditures (personnel,

medical service, indirect and all other nonpersonnel costs). OH-BDD claimed costs of

$166,202,157 on its Forms SSA-4513 for the period October 1, 1994 through

September 30, 1997. We compared the costs reported to SSA with the official State

accounting records. We also compared SSA funds drawn for support of program

operations to the allowable expenditures.


Work was performed in Columbus, Ohio, at OH-BDD and RSC; and in

Baltimore, Maryland, at SSA Headquarters. The field work was conducted from

January through April 1998. Additional field work was performed during the period

November through December 1998 to review additional data provided by OH-BDD in

response to our original draft report.


RESULTS OF AUDIT
Except for the following, the results of our tests indicated that, with respect to the items
tested, the OH-BDD financial reporting and related draw downs complied in all material
respects with Federal cost principles and regulations. For those items not tested,
nothing came to our attention to indicate that the untested items were not in compliance
with applicable laws, regulations and policies. We did, however, note internal control
deficiencies over certain areas that are addressed in detail in the body of the report.

�	 OH-BDD’S ACCOUNTING RECORDS DIFFERED FROM THE FORMS
    SSA-4513 BY $1,109,128.

    RSC Had Computation Errors and Control Problems over Input of Indirect Cost
    Amounts.

1
 Accrual basis accounting is a basis of accounting where transactions are recognized when incurred.
2
 Cash basis accounting is a basis of accounting where transactions are recognized only when cash is
paid out or received.


                                                   ii
    Different Accounting Method Used to Prepare the Forms SSA-4513

    Form SSA-4513 Reporting Based on Data Not a Part of Official Records

�	 RSC’S FEDERAL FUNDS DRAW DOWNS EXCEEDED ITS EXPENDITURES
    BY $689,158.

�   OTHER INTERNAL CONTROL WEAKNESSES

    Inventory Is Not Recorded on RSC Official Records

    Insufficient Controls Exist over Accuracy of Postal Charges

UNRESOLVED ISSUE

�   QUESTIONS REMAIN ABOUT OH-BDD FUNDING AUTHORITY


RECOMMENDATIONS


We recommend that SSA instruct RSC to:

•	 Require OH-BDD to amend its Forms SSA-4513 by a $28,895 increase,
   $871,223 decrease and $266,800 decrease for FYs 1995, 1996 and 1997,
   respectively, to adjust obligations.

•	 Improve internal controls over computing and tracking charges of indirect cost. For
   example, an independent party could quarterly recalculate the indirect costs and
   compare them to the accounting records.

•	 Formalize the system by which accounting information is conveyed to the
   Form SSA-4513 preparer. The Form SSA-4513 amounts should match
   accounting records and be supported by approved documentation.

•	 Refund to SSA $689,158, with applicable interest, for the funds drawn by RSC in
   excess of its audited accounting records.

•	 Add OH-BDD-purchased and SSA-supplied computer equipment to the State
   inventory, affix inventory tags to the equipment and monitor the equipment through
   annual physical inventories.

•	 Segregate the areas within the mailroom for holding the outgoing mail and the
   postage meters. Add a sign to the meter identifying it as the meter restricted for
   OH-BDD mail only.




                                            iii
AGENCY COMMENTS AND THE OFFICE OF THE INSPECTOR GENERAL
RESPONSE

RSC provided written comments (see Appendix D) to our draft report on July 20, 1999.
RSC concurred with the second, third, fifth and sixth recommendations above. RSC did
not agree with our first and fourth recommendations above. The findings and
recommendations as presented in this report consider the comments and additional
information presented by RSC. We believe our recommendations are valid and should
be implemented. For a full explanation, see page 10 of this report. The full text of
RSC’s comments is shown in Appendix D of this report.




                                         iv
                         TABLE OF CONTENTS


                                                                                                                     Page

EXECUTIVE SUMMARY..........................................................................................i
INTRODUCTION .................................................................................................... 1
RESULTS OF REVIEW.......................................................................................... 4
    •	 OH-BDD’S ACOUNTING RECORDS DIFFERED FROM THE
       FORMS SSA-4513 BY $1,109,128.............................................................. 4
         RSC Had Computation Errors and Control Problems Over Input of

         Indirect Cost Amounts ................................................................................. 5

         Different Accounting Method Used to Prepare the Forms SSA-4513.......... 6

         Form SSA-4513 Reporting Based on Data Not a Part of Official

         Records ....................................................................................................... 6

    •	 RSC’S FEDERAL FUNDS DRAWN DOWN EXCEEDED ITS
       EXPENDITURES BY $689,158 ................................................................... 7
    •    OTHER INTERNAL CONTROL WEAKNESSES......................................... 8
         Inventory Is Not Recorded on RSC Official Records ................................... 8
         Insufficient Controls Exist Over Accuracy of Postal Charges....................... 8
    �    UNRESOLVED ISSUE ................................................................................ 8
         Questions Remain About OH-BDD Funding Authority................................. 8
RECOMMENDATIONS ........................................................................................ 10

APPENDICES
APPENDIX A – OH-BDD Obligations Reported/Allowed FY 1995
             (as of September 30, 1997)
APPENDIX B – OH-BDD Obligations Reported/Allowed FY 1996
             (as of September 30, 1997)
APPENDIX C – OH-BDD Obligations Reported/Allowed FY 1997
             (as of September 30, 1997)
APPENDIX D – Agency Comments
APPENDIX E − RSC Letter to Chicago Regional Commissioner
APPENDIX F − Major Report Contributors
APPENDIX G – SSA Organizational Chart
                          INTRODUCTION


OBJECTIVES
Our audit objectives were to:

•	   determine whether costs claimed by the Ohio State Bureau of Disability
     Determination (OH-BDD) on its State Agency Report of Obligations for Social
     Security Administration (SSA) Disability Programs (Form SSA-4513) for the period
     October 1, 1994 through September 30, 1997 were allowable and properly
     allocated;

•	   determine whether the aggregate of the SSA funds drawn down agreed with total
     expenditures for Fiscal Years (FY) 1995 through 1997; and

•	   evaluate internal controls over the accounting and reporting of the administrative
     costs claimed, as well as, the draw down of SSA funds.

BACKGROUND

We performed the audit of OH-BDD’s administrative cost at the request of SSA’s Office
of Disability. The Disability Insurance (DI) program was established in 1954 under
title II of the Social Security Act (Act), as amended. The program provides benefits to
wage earners and their families in the event the wage earners become disabled. In
1972, Congress enacted title XVI of the Act, the Supplemental Security Income (SSI)
program. Title XVI provides a nationally uniform income program to financially needy
individuals who are aged, blind or disabled.

SSA implements the general policies for developing disability claims under the DI and
SSI programs. An agency in each State performs DI and SSI determinations in
accordance with SSA regulations. Each State agency (SA) determines the claimants’
disabilities and ensures that adequate evidence is available to support its
determinations. To assist in making proper disability determinations, each SA is
authorized to purchase medical examinations, x-rays and laboratory tests on a
consultative basis to supplement evidence obtained from claimants’ physicians or other
treating sources.

SSA funds the SA for 100 percent of allowable expenditures. Each year, SSA
determines the amount of funding authorization. Once approved, each SA is allowed to
withdraw SSA funds through the Department of Health and Human Services’ Payment
Management System or the Department of the Treasury’s Automated Standard



                                            1

Application Payments System to meet immediate program expenses. The draw down
of funds is to be made according to 31 Code of Federal Regulation (CFR), Part 205,
and a Treasury/State agreement under the Cash Management Improvement Act
(CMIA). Each SA submits to SSA a Form SSA-4513 to account for program
disbursements and unliquidated obligations at the end of each Federal FY quarter. An
advance or reimbursement for program costs must be made in accordance with the
Office of Management and Budget (OMB) Circular A-87, “Cost Principles for State and
Local Governments.”

OH-BDD is a component within the State of Ohio Rehabilitative Services Commission
(RSC). OH-BDD’s sole workload is processing SSA disability determinations and it
employs approximately 500 personnel. For FYs 1995 through 1997, SSA authorized a
total of $166,723,752 for OH-BDD. OH-BDD’s financial reporting functions are primarily
the responsibility of RSC’s Budget Unit. Allocation of indirect costs was according to an
RSC indirect cost agreement approved by the U.S. Department of Education.

OH-BDD maintains its accounting records on an accrual basis3 except for payroll, which
is maintained on a cash basis4. SSA’s Program Operations Manual System (POMS),
Section DI 39506.806 allows for States to follow their own rules, regulations and
procedures if they differ from POMS. When differences exist, POMS requires the
States to notify SSA and provide copies of the State directives requiring the deviation
from POMS requirements. On July 20, 1999, RSC officially notified SSA (Appendix E)
that it maintains employee payroll on a cash basis instead of an accrual basis.
Subsequently, RSC reached an agreement with SSA’s Chicago Regional Office of
Disability to revise its Form SSA-4513’s from FY1994 to present, recognizing the
change in accounting policy from the accrual basis of accounting, to a cash basis of
accounting.

SCOPE AND METHODOLOGY
To accomplish the objectives, we obtained sufficient evidence to evaluate the financial
transactions to determine whether they are allowable under OMB Circular A-87 and
appropriate as defined by SSA's Program Operations Manual System (POMS). We
also:

    •	 reviewed Title 20 CFR sections, the POMS, and other instructions pertaining to
       administrative costs incurred by OH-BDD and related draw down of SSA funds
       covered by the CMIA agreement;

    •	 interviewed staff at OH-BDD, RSC, Ohio State Auditor’s Office, and SSA's
       Chicago Regional Office of Disability;

    •   analyzed OH-BDD’s general policies and procedures;
3
 Accrual basis accounting is a basis of accounting where transactions are recognized when incurred.
4
 Cash basis accounting is a basis of accounting where transactions are recognized only when cash is
paid out or received.


                                                  2

   •	 evaluated and tested internal controls regarding accounting and financial
      reporting, and cash management activities;

   •	 examined the administrative expenditures (personnel, medical service, indirect
      and all other nonpersonnel costs) incurred and claimed by OH-BDD for the
      period October 1, 1994 through September 30, 1997;

   •	 reviewed the reconciliation of the official State accounting records to the
      administrative costs reported by OH-BDD to SSA on the Form SSA-4513 report
      for the period October 1, 1994 through September 30, 1997; and

   •	 compared the amount of SSA funds drawn for support of program operations to
      the allowable expenditures.

We tested documents supporting the costs claimed by OH-BDD for the period
October 1, 1994 through September 30, 1997, as reported to SSA on the
Form SSA-4513 as of September 30, 1997 (dated October 22, 1997).

We performed work in Columbus, Ohio, at OH-BDD, and the parent agency, RSC; as
well as, in Baltimore, Maryland, at SSA Headquarters. We conducted our field work
from January through April 1998. Additional field work was performed during the period
November through December 1998 to review additional data provided by OH-BDD in
response to our original draft report. Our audit was conducted in accordance with
generally accepted government auditing standards.




                                          3

                  RESULTS OF REVIEW


Except for the issues discussed below, we determined that costs claimed were
allowable and properly allocated and aggregate funds drawn down agreed with the total
expenditures. For those items not tested, nothing came to our attention to indicate that
the untested items were not in compliance with applicable laws, regulations and
policies. Our report also includes recommended improvements to OH-BDD’s internal
controls over the accounting and reporting of administrative costs claimed, as well as
an explanation of an unresolved issue that we are referring to SSA management for
resolution.

OH-BDD’S ACCOUNTING RECORDS DIFFERED FROM THE
FORMS SSA-4513 BY $1,109,128

RSC’s accounting records did not support the Form SSA-4513 reports for OH-BDD’s
FY 1995 through 1997 obligations as of September 30, 1997. RSC’s accounting
records of obligations were $1,109,128 less than the amounts reported on the
corresponding Forms SSA-4513. RSC staff attempted to reconcile the accounting
records for these years to the Forms SSA-4513, but were unsuccessful.

20 CFR § 416.1025(a) states, “The State will establish and maintain the records and
furnish the schedules, financial, cost, and other reports relating to the administration of
the disability program as SSA may require.” Also, 20 CFR § 416.0126 (e) states,
“. . . after the close of a period for which funds have been made available to the State,
the State will submit a report of its expenditures . . . SSA will determine whether the
expenditures were consistent with cost principles.” Inaccurate Forms SSA-4513 do not
represent OH-BDD’s true financial position and make it difficult for SSA to assess
whether expenditures are consistent with cost principles.

We compared the FYs 1995 through 1997 Forms SSA-4513 to the audited accounting
records and found differences, as shown on the following schedule:




                                             4

                       Comparison of Adjusted Accounting Records
                          to Form SSA-4513 Total Obligations
                                      as of 9/30/97

                           Audit Adjusted              Form SSA 4513
              Fiscal        Accounting                Total Obligations
               Year        Record Totals                as of 9/30/97      Differences5

              1995            $56,376,593                $56,347,698           $28,895
              1996             51,725,023                 52,596,246         (871,223)
              1997             56,991,413                 57,258,213         (266,800)
             Totals          $165,093,029               $166,202,157      ($1,109,128)


RSC Had Computation Errors and Control Problems Over Input of Indirect Cost
Amounts

According to negotiated indirect cost agreements, the indirect costs were based on an
assigned percentage of direct payroll. To test the accuracy of RSC’s charges and
amounts reported in the Form SSA-4513, we computed indirect cost using payroll
amounts from the accounting system and the negotiated rate. Our computation
showed that the indirect costs RSC reported on the Forms SSA-4513 contained errors.
OH-BDD’s Form SSA-4513 reported indirect costs of $22,111,574. Per the table
below, our computation found indirect costs should have been computed as
$21,650,989 ($460,585 lower than shown on the Form SSA-4513 submitted by OH-
BDD).



                                     Computation of Indirect Cost

                                                                         Indirect        Difference
                                       Percentage                         Costs           Between
                   RSC Payroll         per Indirect      Auditor’s     Reported Per      Computed
                   Accounting             Cost           Computed         Form               and
        FY           Record            Agreement          Amount        SSA-4513         Reported

       95              $20,979,607        39.1           $ 8,203,026    $ 8,238,613         $ 35,587
       96               21,772,977        31.6             6,880,261      7,201,442          321,181
       97               23,796,023        27.6             6,567,702      6,671,519          103,817
      Total            $66,548,607                       $21,650,989    $22,111,574         $460,585




5
    Additional explanation of these differences can be found in Appendices A, B and C.


                                                         5
RSC staff stated computation errors were discovered when the original indirect costs
were computed. Also, RSC stated duplicate charges were entered into the accounting
system; however, the accounting system was not adjusted until March 1998. In RSC’s
attempts to make correcting entries to the accounting system, its efforts resulted in
additional errors in the indirect cost amounts because incorrect rates were used.

Different Accounting Methods Used to Prepare the Forms SSA-4513

The individual responsible for preparing the Form SSA-4513 followed POMS guidance
to identify and report the accrued portion of payroll expenses. However, individuals
responsible for computing the draw down of Federal funds did not compute the payroll
accrual in the year the expense was incurred. Instead, the draw down amounts were
computed based on when the expenses were paid (cash basis). RSC officials informed
us that the State of Ohio requires accounting records for payroll to be on a cash basis.
The cash basis accounting records were used to determine the amount of funding to be
drawn. This problem created a difference between what was reported in the accounting
records and what was reported on the Form SSA-4513.

Subsequent to our fieldwork, the RSC notified the SSA Regional Office of Disability that
the State of Ohio’s accounting methodology for employee payroll differed from POMS.
SSA Headquarters OD staff informed us that the Regional Office will permit RSC to
revise the Forms SSA-4513, for FY 1994 to present, to eliminate the differences caused
by using accrual accounting for payroll when preparing the Form SSA-4513 and cash
basis for payroll in its accounting for its record keeping.

Nonetheless, revising the Forms SSA-4513 to a cash basis will increase the differences
between expenses supported by the accounting records and the amounts shown on the
Forms SSA-4513s for FYs 1995, 1996, and 1997 by $(91,605), $168,918, and
$258,260, respectively, as of September 30, 1997 (dated October 22, 1997).
Additionally, the change in accounting will increase the difference between the amounts
of the cash draw downs and the supporting accounting records.

Form SSA-4513 Reporting Based on Data Not a Part of Official Records

Generally, we found RSC’s process for preparing the Form SSA-4513 cumbersome and
confusing. The Form SSA-4513 was based partially on processed records
(expenditures) and partially on estimates (unliquidated obligations). For example,
unliquidated obligations were difficult to ascertain because of the tendency to report
amounts based on oral confirmations and other informal means. Preparation of the
Form SSA-4513, based on data that is not part of OH-BDD’s official records increases
the likelihood of errors in reporting and accounting for SSA funding.




                                           6

RSC’S FEDERAL FUNDS DRAWN DOWN EXCEEDED ITS
EXPENDITURES BY $689,158

RSC funds drawn should represent actual expenditures that require advance payment
or reimbursement. The funds authorized and allocated are drawn down by RSC when
an actual expenditure is incurred and RSC reimbursement is necessary. Funds
reimbursed must be for immediate needs as required in 31 CFR § 205.7. Also,
POMS § DI 39506.212 states all expenditures are deemed necessary if they are
incurred by the disability determination process, in accordance with standards and other
written guidelines of the Commissioner of Social Security, approved by SSA and within
the limits of the approved OH-BDD budget.

For FYs 1995 costs exceeded draw downs $16,121. For FYs 1996 and 1997 draw
downs exceeded costs by $643,503 and $61,776, respectively. The total excess draw
downs amounted to $689,158. We determined the excess draw downs by comparing
accounting record totals to the total draw down amount. Listed below, for comparison
purposes, are the amounts drawn down as compared to OH-BDD costs per the audit
adjusted accounting records.

                     Comparison of OH-BDD Draw Downs to Cost
                                      As of 11/3/98
                                                                     Total
                               FY 1995     FY 1996     FY 1997      Amounts
RSC Draw Downs                $56,360,472 $52,368,526 $57,053,189 $165,782,187
Less: OH-BDD Costs             56,376,593  51,725,023  56,991,413  165,093,029
Excess Draw Downs             $    (16,121) $   643,503   $    61,776 $      689,158

The funds drawn in excess of expenditures should be returned to the Federal
Government.

While investigating the draw downs, RSC officials told us that indirect cost charges had
been duplicated and were under review. The excess draw downs occurred because
internal controls over accounting charges were not effective in preventing indirect cost
errors in the accounting system. RSC should routinely reconcile draw downs to the
accounting records to balance funds after adjustments take place in the accounting
system.




                                           7

OTHER INTERNAL CONTROL WEAKNESSES

Inventory Is Not Recorded on RSC Official Records

SSA funded and provided OH-BDD with 126 personal computers and 4 printers. We
found that OH-BDD had not assigned inventory tags or monitored the equipment
through bi-annual physical inventories. In our opinion, RSC staff did not exercise
proper inventory controls over purchased equipment. This lack of control resulted from
poor communication of purchases to RSC staff and RSC’s delays in recording the new
equipment. Also, OH-BDD had not listed SSA–distributed equipment in RSC’s
inventory because of uncertainty as to its value and ownership. RSC procedures
require that all equipment of a material value be tagged and monitored. Electronic data
processing (EDP) equipment not tagged and monitored through physical inventories
could be stolen or misplaced without timely detection.

Insufficient Controls Exist Over Accuracy of Postal Charges

The accuracy of amounts charged for postage expense was questionable. RSC shares
the mailroom with the OH-BDD and may have commingled outgoing mail. As a result,
SSA may have been inappropriately charged for non-OH-BDD postage. OH-BDD
recorded about $500,000 in annual postage expenses. 20 CFR § 404.1626(d) requires
that State Disability Determination Services (DDS) not incur or make expenditures for
items not approved by SSA. We could not determine the extent of the inappropriate
postage meter usage. We observed mailroom staff disagreeing on which postage
meter was for OH-BDD mail. The RSC mailroom did not sufficiently separate meters or
outgoing mail holding areas. Also, the meter machines lacked signs identifying them as
restricted for OH-BDD use. Consequently, we performed analytical tests and
determined postage expenses were not materially overstated.

UNRESOLVED ISSUE

Questions Remain About OH-BDD Funding Authority

SSA allocated funds from its Limitation on Administrative Expenses (LAE)
appropriations for OH-BDD to perform disability determinations. The LAE appropriation
laws and related allocation/allowance advices restricted the availability of FYs 1995
through 1997 LAE obligational funds to within each FY.

When purchasing EDP equipment, OH-BDD did not restrict its use of SSA’s funds to
the funded Federal FYs. We reviewed all 27 payment vouchers for EDP and
equipment purchases over $10,000. Nineteen vouchers, totaling about $4.3 million,




                                           8

were related to obligations made after the close of the Federal FYs. OH-BDD told us it
did not believe the time restrictions on SSA’s LAE funding of OH-BDD operations
applied to it.

The charges occurred in Federal FYs 1996 through 1998. The following table
compares annual amounts of when purchases were obligated to the fund year charged.

               Comparison of Obligations to Authorized Fund Year Charged
    Period of        Obligation                  Fund Years Charged
    Obligation        Amount         1994           1995        1996            1997
     FY 1996          $3,231,056    $380,714      $2,850,342          0             0
     FY 1997           1,027,293      17,280         889,516  $120,497              0
     FY 1998               44,883          0               0     10,350       $34,533

     Totals6           $4,303,232   $397,994      $3,739,858     $130,847     $34,533


We requested a legal opinion from the Office of the Counsel to the Inspector General
as to whether OH-BDD must follow the appropriation laws and regulations applicable to
SSA’s LAE funding, specifically, those that require obligations to be made before the
end of the FY. Counsel stated that it could not find citations which conclusively
indicated that OH-BDD must follow the appropriation laws and regulations applicable to
SSA’s LAE funding. In fact, Counsel concluded that the relevant regulations and
POMS lend themselves to a variety of interpretations on this issue. Due to this
uncertainty, we could not conclude on whether the approximate $4.3 million obligated
after the end of the Federal FY was allowable. Therefore, we defer to SSA to decide
the allowability of these post-FY obligations.

Since this matter impacts SSA’s fiscal relationship with all 54 disability determination
services (DDS), we are currently preparing an audit report to discuss the issue of DDS
obligational authority and the conflicting guidance that currently exists. We are working
with SSA’s OD and Office of the General Counsel to obtain a legal opinion to resolve
this issue.




6
    Figures are rounded.


                                            9

                   RECOMMENDATIONS


We recommend that SSA instruct RSC to:

1.	 Require OH-BDD to amend its Forms SSA-4513 by a $28,895 increase,
    $871,223 decrease and $266,800 decrease for FYs 1995, 1996 and 1997,
    respectively, to adjust obligations.

2.	 Improve internal controls over computing and tracking charges of indirect cost. For
    example, an independent party could quarterly recalculate the indirect costs and
    compare them to the accounting records.

3. 	 Formalize the system by which accounting information is conveyed to the
     Form SSA-4513 preparer. The Form SSA-4513 amounts should match accounting
     records and be supported by approved documentation.

4. 	 Refund to SSA $689,158, with applicable interest, for the funds drawn by RSC in
     excess of its audited accounting records.

5. 	 Add OH-BDD-purchased and SSA-supplied computer equipment to the State
     inventory, affix inventory tags to the equipment and monitor the equipment
     throughout annual physical inventories.

6. 	 Segregate the areas within the mailroom for holding the outgoing mail and the
     postage meters. Add a sign to the meter identifying it as the meter restricted for
     OH-BDD mail only.


AGENCY COMMENTS AND THE OFFICE OF THE INSPECTOR
GENERAL (OIG) RESPONSE

In a letter, dated July 20, 1999, the RSC agreed with some OIG findings and
recommendations and disagreed with others. Conversely, the OIG has modified
portions of its report in consideration of RSC’s comments and additional information it
provided. We have revised the dollar amounts for: (1) the difference between the
accounting records and Form SSA-4513 and (2) the difference between the accounting
records and the draw downs. Two recommendations that were in the draft report have
been removed from the final report.




                                            10

FINDING − OH-BDD’S ACCOUNTING RECORDS DIFFERED FROM THE
FORMS SSA-4513 BY $1,109,128

Recommendation: Require OH-BDD to amend its Forms SSA-4513 by a
$28,895 increase, $871,223 decrease and $266,800 decrease for FYs 1995, 1996,
and 1997, respectively, to adjust obligations.

Agency comment

RSC did not agree with the OIG’s audit adjustments for accrued payroll and indirect
costs. RSC pointed out that POMS Section 39506.806 permits State agencies to follow
their own accounting policies if they are in conflict with POMS. Ohio’s accounting policy
for employee payroll is to charge payroll on a cash basis.

OIG Response

We have modified our final report to reflect the use of cash basis accounting for payroll
and indirect cost. However, this modification has increased the difference between the
accounting records’ amounts and the amounts of expenses claimed on the
Form SSA-4513. Specifically, the use of cash basis accounting for payroll and indirect
costs widened the gap between the shortfall in the supporting accounting records and
Form SSA-4513 by an additional $335,573 for the FY 1995-97 period.


Recommendation: Improve internal controls over computing and tracking
charges of indirect cost. For example, an independent party could quarterly
recalculate the indirect costs and compare them to the accounting records.

Agency Comment

RSC concurred.

FINDING − RSC’S FEDERAL FUNDS DRAWN DOWN EXCEEDED ITS
EXPENDITURES

Recommendation: Refund to SSA $689,158, with applicable interest, for the funds
drawn by RSC in excess of its audited accounting records.

Agency Comment

The RSC did not agree with this recommendation. RSC responded that considering the
POMS guidance, in conjunction with Ohio accounting policies, it had followed proper
draw down procedures.

OH-BDD planned to revise its Forms SSA-4513, for 1994 to present, to a cash basis,
as well as, adjust its cash draw downs. OH-BDD believed there would not be


                                           11

differences between the Forms SSA-4513, cash draw downs and accounting records
when it completed its efforts.

(NOTE: SSA has advised us that RSC has already repaid $598,414 and made
adjustments to FY 1997 cash draws of $99,985.)

OIG Response:

We have modified our final report to reflect the cash basis of accounting for the
employee payroll and related indirect costs. Since RSC has already repaid SSA, we
believe the RSC’s disagreement with the draft reports finding pertained more to the
amounts, which were reported on an accrual basis of accounting, then with the
substance of the finding.

Recommendation: Add OH-BDD purchased and SSA-supplied computer
equipment to the State inventory, affix inventory tags to the equipment and
monitor the equipment through annual physical inventories.

Agency Comment:

RSC Concurred.

Recommendation: Segregate the areas within the mailroom for holding the
outgoing mail and the postage meters. Add a sign to the meter identifying it as
the meter restricted for OH-BDD use only.


Agency Comment:

RSC concurred.




                                         12

APPENDICES

                                                                                                                      APPENDIX A



    THE OHIO REHABILITATION SERVICES COMMISION FOR ITS BUREAU OF

            DISABILITY DETERMINATION (OH-BDD) OBLIGATIONS

                          REPORTED/ALLOWED

                FISCAL YEAR 1995 (as of September 30, 1997)


                                                                                                                    RECOMMENDED
                    COSTS                        OH-BDD            AUDIT                         REPORTED ON       AMENDMENTS TO
                                                RECORDS         ADJUSTMENTS       ALLOWABLE      FORM SSA-4513      FORM SSA-4513

    PAYROLL:
     PAYROLL UNLIQUIDATED                             $(99)                 $0           $(99)                $0             $(99)
     EXPENDED                                    25,328,942                 $0      25,328,942        25,263,958            64,984
    TOTAL PAYROLL COST                          $25,328,843                        $25,328,843       $25,263,958           $64,885

    MEDICAL:
     MEDICAL UNLIQUIDATED                                60                  0              60                 0                 60
     EXPENDED                                    16,725,123                  0      16,725,123        16,726,736            (1,613)
    TOTAL MEDICAL COST                          $16,725,183                        $16,725,183       $16,726,736           $(1,553)

    INDIRECT COST:
                                                                              1
     INDIRECT UNLIQUIDATED                           (35,533)          35,533                0                 0                  0
                                                                              1
     EXPENDED                                      8,238,613        (358,587)        8,203,026         8,238,613           (35,587)
    TOTAL INDIRECT COST                           $8,203,080                        $8,203,026        $8,238,613          $(35,587)

    ALL OTHER NONPERSONNEL:
     ALL OTH.UNLIQUIDATED                              3,642                $0           3,642                 0              3,642
     EXPENDED                                      6,115,899                $0       6,115,899         6,118,391            (2,492)
    TOTAL ALL OTHER COST                          $6,119,541                        $6,119,541        $6,118,391            $1,150

    TOTAL UNLIQUIDATED                              (31,930)            35,533           3,603                 0             3,603
    TOTAL EXPENDED                               56,408,577           (35,587)      56,372,989        56,347,698            25,291
    TOTAL OBLIGATIONS                           $56,376,647              $(54)     $56,376,592       $56,347,698           $28,894

Note: Minor differences are due to rounding.




1
    Adjusted for indirect cost recomputed by audit.
                                                                                                                                       APPENDIX B


                                 OH-BDD OBLIGATIONS REPORTED/ALLOWED

                                  Fiscal Year 1996 (as of September 30, 1997)


                                                                                                                                    RECOMMENDED
                                                  OH-BDD                   AUDIT                                REPORTED ON        AMENDMENTS TO
                    COSTS                        RECORDS                ADJUSTMENTS             ALLOWABLE       FORM SSA-4513       FORM SSA-4513

      PAYROLL:
       PAYROLL UNLIQUIDATED                              $(80)                           $0            $(80)                 $0               $(80)
       EXPENDED                                     25,999,966                           $0       25,999,966         26,133,199           (133,233)
      TOTAL PAYROLL COST                           $25,999,886                                   $25,999,886        $26,133,199          $(133,313)

      MEDICAL:
       MEDICAL UNLIQUIDATED                                834                            0              834                  0                834
       EXPENDED                                     16,313,147                            0       16,313,147         16,312,097              1,050
      TOTAL MEDICAL COST                           $16,313,981                                   $16,313,981        $16,312,097             $1,884

      INDIRECT COST:
                                                                                           1
       INDIRECT UNLIQUIDATED                          (321,143)                    321,143                 0                  0                   0
                                                                                           1
       EXPENDED                                       7,201,441                  (321,180)         6,880,261          7,201,442           (321,181)
      TOTAL INDIRECT COST                            $6,880,298                                   $6,880,261         $7,201,442          $(321,181)

      ALL OTHER NONPERSONNEL:
       ALL OTH.UNLIQUIDATED                              56,577                          $0           56,577            509,596           (453,019)
       EXPENDED                                       2,474,317                          $0        2,474,317          2,439,912              34,405
      TOTAL ALL OTHER COST                           $2,530,894                                   $2,530,894         $2,949,508          $(418,614)

      TOTAL UNLIQUIDATED                              (263,812)                     321,143           57,331            509,596           (452,265)
      TOTAL EXPENDED                                 51,988,871                   (321,180)       51,667,691         52,086,650           (418,959)
      TOTAL OBLIGATIONS                              $51,725,059                        $(37)     $51,725,022        $52,596,246           $(871,224)

                                       Note: Minor differences are due to rounding.




1
    Adjusted for indirect cost recomputation by audit.
                                                                                                                         APPENDIX C


                                  OH-BDD OBLIGATIONS REPORTED/ALLOWED

                                   Fiscal Year 1997 (as of September 30, 1997)


                                                                                                                        RECOMMENDED
                                                OHBDD             AUDIT                            REPORTED ON         AMENDMENTS TO
               COSTS                           RECORDS         ADJUSTMENTS         ALLOWABLE       FORM SSA-4513        FORM SSA-4513

PAYROLL:
 PAYROLL UNLIQUIDATED                               $175,272                 $0         $175,272          $1,310,350         $(1,135,078)
 EXPENDED                                         28,037,680                 $0       28,037,680          27,118,240              919,440
TOTAL PAYROLL COST                               $28,212,952                         $28,212,952         $28,428,590           $(215,638)

MEDICAL:
 MEDICAL UNLIQUIDATED                              2,256,982                  0        2,256,982           1,590,377             666,605
 EXPENDED                                         17,189,312                  0       17,189,312          17,190,243               (931)
TOTAL MEDICAL COST                               $19,446,294                         $19,446,294         $18,780,620            $665,674

INDIRECT COST:
                                                                               1
INDIRECT UNLIQUIDATED                              (548,510)           548,510                 0             390,433           (390,433)
                                                                               1
EXPENDED                                           7,116,705         (549,003)         6,567,702           6,281,086             286,616
TOTAL INDIRECT COST                               $6,568,195                          $6,567,702          $6,671,519          $(103,817)

ALL OTHER NONPERSONNEL:
 ALL OTH.UNLIQUIDATED                                326,414                 $0          326,414             982,584           (656,170)
 EXPENDED                                          2,438,051                 $0        2,438,051           2,394,900              43,151
TOTAL ALL OTHER COST                              $2,764,465                          $2,764,465          $3,377,484          $(613,019)

TOTAL UNLIQUIDATED                                 2,210,158           548,510         2,758,668           4,273,744          (1,515,076)
TOTAL EXPENDED                                    54,781,748         (549,003)        54,232,745          52,984,469            1,248,276
TOTAL OBLIGATIONS                                $56,991,906            $(493)       $56,991,413         $57,258,213           $(266,800)

Note: Minor differences are due to rounding.




1
    Adjusted for indirect cost recomputation by audit.
                   APPENDIX D



AGENCY COMMENTS

                             r--,                                      ?-"\
 "

~"

     State of Ohio
     Rehabilitation           Services          Commission
                                                                                 Robert L. Rabe, Administrator



                                             July 20, 1999


       Mr. Daniel R. Devlin, Acting Assistant
       Inspector General for Audit
       Financial Management Audits
       Social Security Administration
       Office of the Inspector General
       6401 Security Boulevard
       Room 4-L-2, Operations Building
       Woodlawn, Maryland 21235

       Dear Mr. Devlin:

       I would like to offer the following responsesto the recommendations developed during
       the course of your audit of administrative costs claimed by the Ohio Rehabilitation
       Services Commission (ORSC) for its Bureau of Disability Determination (OH-BDD) (A-
       13-98-1007):

       Recommendation #1: Reqllire OH-BDD to amend its Forms SSA-4513 bya $62,711
       decrease, $702,305 decrease,and $8,694 decreasefor FYs 1995,1996, and 1997,
       respectively, to adjllst obligations.

       While ORSC was able to reconcile the state accounting records with the analysis
       prepared by the Office of the Inspector General, we do not agreewith this
       recommendation. Specifically, ORSC does not agree with recommended adjustments to
       payroll and indirect cost charges.

       The proposed audit adjustments reflect a recalculation of applicable payroll and indirect
       cost chargesusing an accrual basis. From ORSC's perspective, the Program Operations
       Manual System (POMS) guidance as outlined in 39506.806 (Accounting) takes
       precedencewith regard to these charges. This section indicates that it is SSA's intent to
       follow state rules and regulations regarding charging obligations to accounting periods.
       In that the State of Ohio's payroll is charged on a cash basis, using a.'1accrual basis is
       inconsistent with the POMS guidance. As an additional note, indirect cost chargeswere
       calculated and charged in accordancewith the indirect cost plans negotiated with our
       cognizant agency, the Department of Education. These plans were built upon a cash
       basis for payroll and related indirect cost charges. Any modifications to the accounting
       system relative to accrued payroll would impact indirect cost revenue and put ORSC out
       of compliance with approved indirect cost plans.
                             A                                        ~
,.
~
,
     Recommendation #3: Revise accounting records as of February 12,1998 to adjust
     indirect cost by a $180,066 increase, $21,684 decrease,and $1,038,705 decreasefor
     FYs 1995,1996, and 1997, respectively.

     This recommendation has been dropped per your letter dated June 4, 1999.

      Recommendation #5: Adjust accounting procedllres for calculating the amolmt of
     federalfunds drawn down to include payroll accrllal calcldations.

     ORSC does not agreewith this recommendation. According to Section 39506.809 A of
     the POMS, state agenciesmust determine when transactionsbecome valid obligations.
     As mentioned previously, ORSC computes payroll and indirect cost chargeson a cash
     basis. This is consistent with the accounting proceduresfollowed by the State of Ohio
     and all applicable indirect cost agreementsnegotiated with the Department of Education.
     All corresponding federal draws, therefore, have beenbasedupon cash accounting.

     ORSC staff discussedthis approach with SSA staff in the Chicago Regional Office. The
     discrepancy between the POMS guidance and the accounting practices of the State of
     Ohio were discussed and reviewed over the course of severaltelephone calls.
     Significantly, Regional Office staff support Ohio BDD's practice of drawing federal
     funds on a cash basis. They were primarily concernedthat there be consistency between
     and among the 4513'5, the federal draws, and the accounting records. They suggested
     that ORSC follow state rules and procedures including charging and reporting payroll and
     indirect cost on a cash basis. It follows that the 4513'5 would also be on a cash basis.

     It should be noted that consistent with POMS Section 39506.806, Ohio BDD has .
     fonnally infonned the Chicago Regional Office of the conflict between Ohio accounting
     practices and the requirements under the POMS. A copy of Kathleen M. Johnson's letter
     to JamesMartin, Regional Commissioner, is attached.

     Recommendation #6: Refund to SSA $353,586, with applicable interest,for thefunds
     drawn by RSC in excessof its audited accounting records.

     ORSC does not agreewith this recommendation. In light of the guidance offered by the
     POMS, with respect to State of Ohio accounting procedures,and in conjunction with the
     approved indirect cost plans for the years in question, ORSC followed proper draw down
     procedures. Therefore, there are no funds and/or interest to be returned.

     In addition, it is the intent of Ohio BDD to reconcile all federal reports on a cash basis
     retroactive to Federal Fiscal Year 1994. The corresponding 4513'5 and federal draws
     will also be adjusted. This will ensure agreementamong the 4513'5, the federal draws,
     and the accounting records. This proposal has been discussedwith the Chicago Regional
     Office. They have agreed verbally.
                               ,<,                                      """"
    .,
'.
(



         Recommendations     #2, #4, #7, and #8.


         ORSC agreeswith these recommendations. There is concurrence that internal controls
         over computing and tracking indirect costs needto be improved. Similarly, inventory has
         been updated and signage has been addedto ensurethat mailroom employees are clear on
         BDD mail restrictions. Finally, the necessarystaff members are working to formalize the
         processesand procedures for relaying information to the individual responsible for
         preparing the SSA-4513.

         If you have any questions or concernsregarding this material, please contact Marc
         Protsman, the Team Leader of Administrative Support, at (614) 438-1401. Faxed
         correspondencecan be directed to Mr. Protsman at (614) 438-1292.




         Cc:   M. Protsman
               K.Johnson
               J. Connelly
               J. Earich
                        APPENDIX E



   REHABILIATION SERVICES

COMMISSION LETTER TO CHICAGO

   REGIONAL COMMISSIONER

                                        July 20, 1999




    James Martin, Regional Commissioner

    Social Security Administration

    AlTN:   Myles McFadden, Disability Program Administrator

     P.0. Box 8280, loth Floor

     Chicago, Illinois 60680-8280


     Dear Mr. McFadden:

     Section 39506.806 of the Program Operations Manual System (POMS) specifies
     the guidance to be followed for establishing and charging obligations to
     accounting periods. In essence, the state agency is to operate within the
     context of rules and procedures established by the state. The caveat is a
     situation where there is a conflict between POMS guidance and state directives.
     In that situation, the DDS is instructed to inform the regional office of the .
     conflict.

     Pleaseconsider this letter as formal notice of a conflict between POMSguidance
     and accounting procedures followed by the State of Ohio. The main issue is the
     POMSrequirement that payroll costs be reported on an accrued basis. In
     accordance
     on         with state
        a cash basis.       practices,
                      Similarly,       our parent
                                 all approved     agency
                                              indirect    computes
                                                       costs         andbeen
                                                             plans have  records .payroll

     negotiated so that charges are also computed and recorded on a cash basis. All
     related federal draws follow the same methodology.

     This creates inconsistencies among the state accounting records, the information
     reported on the 4513'5, and the federal draws. To alleviate these
     inconsistencies, I am proposing changes. The Ohio DDS will reconcile all federal
     reports on a cash basis retroactive to Federal Fiscal Year 1994. The
     corresponding 4513'5 and federal draws will also be adjusted. Effective with
     Federal Fiscal Year 2000, the 4513'5 will be prepared on a cash basis. Both of
     these actions will ensure that the 4513'5, the federal draws, and the accounting
     records are all synchronized.




SOCIAL                   DISABILITY          SUPPLEMENTAL            SECURITY        INCOME
Page    2




Please keep in mind that reconciliations of prior fiscal years may create the need
to adjust grant award amounts in any given year. Documentation is being
prepared to justify any changes that may be requested. DDS staff will be in
contact with your staff as the need arises.

Thank you in advance for your attention to this matter.        If you have any
questions, please call me at (614) 438-1500.

Sincerely,




  7~Jt..-f~
Kathleen M. Johnson
Director

copies to:    R. Rabe, J. Earich, M. Protsman,   F. Spratley
                                                                             APPENDIX F





    MAJOR REPORT CONTRIBUTORS


Office of the Inspector General
Frederick C. Nordhoff, Director, Financial Management Audits and Performance
Monitoring

Shirley Todd, Director, General Management Audit Division

Gale S. Stone, Director, Systems Audit

Phil Rogofsky, Acting Audit Manager

Lance Chilcoat, Senior Auditor

Sigmund Wisowaty, Senior Auditor

Steven Sachs, Senior Auditor

Patrick Kennedy, Senior Auditor, EDP Support

Cheryl Robinson, Writer-Editor, Technical Services


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-13-98-51007
                      APPENDIX G



SSA ORGANIZATIONAL CHART

                                                                "~


             ~
             c
             o
            "in         ~
            ~      .,    E     ~
             E     E     c-
                        -c
             E'-C)       ~     c
                         >-E
            8.!?~       C/)c
            ".5   CI)   03
                         c'i
            0.           ua:
             C)
                        8
            0




                                   1       1                                    1                       T


                                                                          Et'
                                                                          e-



                                                                           ~~
                                                                          0-..
                                                                          ...~
                                                                           00)
                                                                           0) C
                                                                           UO)
                                                                          5m



                                           -I..                                                                    1
                                   1                                            1
                                                                                           ,   II                      T

                                               ~~JUi
                                               .,                    -C
                                                                     Do
                                                                      ~ "0
                                                                        c o
                                                                        m  .,
                                                                                                  c
                                                                                                  o
                                                                                                 ;0

                                                                                                  ~1:

                                           ~
                                           11)




                                                        ,
                                                          m ;
                                                                            I1)G
                                                                            .~~
                                                                                      0.
                                                                                      O
                                                                                                 ~&.
                                                                                                 <0.
                                                                                                 -"

                                                                                                 u
                                                                                                 8
                                                                                                  OIl)
                                                                                                  G


                                                        +
                                                    /


                                       I                                        Q
                                                                                u                     "0
                                                                                c                     c~
                                                                     '0         e::                   ID      ID
                                                                      c".s
                                                                      ...,(I)                  egu;
                                                                      Q c             .,       e;:a
                                                                      a--                       ae.E
                                                                     <r!C
                                                                       .0             ~
                                                                                                a-"
                                                                                                ~.!Jc
                                                                     -Q
                                                                     'O     .2: C              o.CID
                                                                     O~ID                             Ec
                                                                             "                        "O[i:
                                                                            II)                       <




                                           r                                                          ]




    ,~
     .?;-
     ~
                                                                                                                   J
      c
     w


     ~
     '0
      ~
     ~




~
                                   1
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
